             DEPARTMENT OF HEALTH AND HUMAN SERVICES                               Office of Inspector General
                                                                                    Office of Audit Services

                                                                                         REGION IV
                                                                             61 Forsyth Street, S.W., Suite 3T41
                                     NOV '6 2008                                  Atlanta, Georgia 30303




Report Number: A-04-05-02010

Claudio Valero, President
Action Rehabilitation Center
311 SW. 27th Avenue
Miami, Florida 33135

Dear Mr. Valero:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of
Inspector General (DIG), final report entitled "Review of Comprehensive Outpatient
Rehabilitation Facility Therapy Services Provided by Action Rehabilitation Center, Inc."
We will forward a copy of this report to the HHS action official noted on the following
page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters
reported. We request that you respond to this official within 30 days from the date of this
letter. Your response should present any comments or additional information that you
believe may have a bearing on the final determination.

Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.c. § 552, as amended
by Public Law 104-231, DIG reports generally are made available to the public to the
extent the information is not subject to exemptions in the Act (45 CFR part 5).
Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me
(404) 562-7750, or contact A$drew Funtal, Audit Manager, at (404) 562-7762 or through
e-mail at Andrew.Funtal@oig.hhs.gov. Please refer to report number A-05-02010 in all
correspondence.' "

                                              Sincerely,



                                              Peter J. Barbera
                                              Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 - Claudio Valero

Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106




                /,         III,

                           '"
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




       REVIEW OF THE
 COMPREHENSIVE OUTPATIENT
  REHABILITATION FACILITY
     THERAPY SERVICES
    PROVIDED BY ACTION
 REHABILITATION CENTER, INC.




                    Daniel R. Levinson
                     Inspector General

                     November 2008
                     A-04-05-02010
                    Office of Inspector General
                                      http://oig.hhs.gov


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oiq.hhs.qov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.




                     ".
                               EXECUTIVE SUMMARY

BACKGROUND

Comprehensive outpatient rehabilitation facilities (CORF) provide diagnostic,
therapeutic, and restorative services to outpatients for the rehabilitation of injured,
disabled, or sick persons.

Prior to implementation of the prospective payment system, CORFs received payment
under a cost-based reimbursement methodology. The Balanced Budget Act (BBA) of
1997 (sections 4523 (d) and 4541) amended the Social Security Act and required
payment for hospital outpatient services, including services furnished by CORFs, to be
made under a prospective payment system.

Action Rehabilitation Center, Inc. (Action) is a CORF located in Coral Gables, Florida.
With the assistance of a program safeguard contractor (PSC), we reviewed selected
claims Action submitted and Medicare paid. The claims selected for review included
multiple physical and occupational therapy services with dates of service from January
1, 2003, through December 31, 2003 (calendar year 2003). In total, Action received
$2,038,498 for 2,083 claims during the period of our review.

OBJECTIVE

Our objective was to determine whether services Action provided for physical
therapy, speech language pathology, and occupational therapy during calendar year
(CY) 2003 met Medicare reimbursement requirements.

SUMMARY OF FINDINGS

Of the approximately $2 million in Medicare funds Action received in CY 2003, we
estimate that $727,569 was for therapy services that did not meet Medicare
reimbursement requirements.

From our random sample of 100 claims containing 4,786 CORF therapy services totaling
$100,283 the PSCs identified 94 claims for 1,789 services totaling $40,164 that did not
meet Medicare reimbursement requirements because:

   •   315 services totaling $6,754 were provided under unapproved or incomplete plans
       of care;

   • 538 services totaling $13,068 did not meet documentation standards;

   • 905 services totaling $19,699 did not meet Medicare duration of therapy
     requirements; and

   •   31 services totaling $643 were not medically necessary.




                                               i
Although Action had written policies and procedures that, if followed, would have
precluded some of the errors the medical reviewers identified, it did not always follow its
own policies and procedures for ensuring that therapy services were provided in
accordance with Medicare reimbursement requirements.

In addition, Action's written policies and procedures did not address Medicare
requirements for duration of therapy services and termination of Medicare coverage
when patients reached their rehabilitation goals.

RECOMMENDATIONS

We recommend that Action:

   •   refund to the Medicare program an estimated $727,569 in payments for
       services Action billed for CY 2003 that did not meet Medicare reimbursement
       requirements;

   •   follow its policies and procedures to ensure therapy services are provided
       under an approved and complete plan of care and are adequately documented;

   •   update its policies and procedures to address Medicare requirements for
       duration of therapy services and medical necessity; and

   •   identify and submit adjusted claims for services provided subsequent to our
       audit period that did not meet Medicare reimbursement requirements.

ACTION COMMENTS

Disagreement With Audit Findings

In a written response to our draft report, Action generally disagreed with our findings.
Action provided us with additional medical records, notes, and other documentation that
Action had compiled for each of the 94 claims we found to contain errors and requested
that we review them.

First Coast Service Options Probe Medical Review

Action requested that we take into consideration the probe medical review First Coast
Service Options (First Coast) completed in September 2004. The First Coast review
found only “12 [percent] in alleged billing errors or deficiencies” while our review
found “approximately 40 [percent].”




                                             ii
OFFICE OF INSPECTOR GENERAL RESPONSE

Disagreement With Audit Findings

In view of the disagreement expressed by Action, we requested that the PSC medical
reviewers consider the additional documents Action included with its comments and
provide us with a response. Based on the PSC’s review of Action’s comments and
additional documentation, the medical reviewers concluded that they would partially
reverse their original determinations on some of the services originally found to be in
error. Accordingly, we adjusted our findings and recommendations.

First Coast Service Options Probe Medical Review

We reviewed the documentation provided by Action relative to the First Coast probe
medical review and found that the First Coast review was dissimilar from the PSC
medical review, discussed in this report, for the following three reasons: The First Coast
medical review (1) covered only a 6-month period, (2) covered only 40 claims containing
382 services, and (3) was limited to CPT code 97124 (massage therapy). Conversely, the
PSC medical review (1) covered a one-year period, (2) covered 100 claims containing
4,786 services, and (3) included 12 different CPT codes. Therefore, the First Coast
review does not constitute an appropriate basis for comparison with the PSC review.

The complete text of Action’s comments is included as Appendix C.




                                            iii
                                               TABLE OF CONTENTS

                                                                                                                            PAGE

INTRODUCTION                 ...................................................................................................... 1

        BACKGROUND ................................................................................................. 1
            Comprehensive Outpatient Rehabilitation Facility.................................. 1
            Comprehensive Outpatient Rehabilitation Facility Legislation............... 1
            Comprehensive Outpatient Rehabilitation Facility Prospective
              Payment System................................................................................... 1
            Fiscal Intermediary Responsibilities........................................................ 1
            Action Rehabilitation Center, Inc. ........................................................... 1

        OBJECTIVE, SCOPE, AND METHODOLOGY ............................................... 2
             Objective .................................................................................................. 2
             Scope ...................................................................................................... 2
             Methodology ............................................................................................ 2

FINDINGS AND RECOMMENDATIONS ................................................................ 3

        MEDICARE REQUIREMENTS AND FISCAL INTERMEDIARY
        GUIDANCE ...................................................................................................... 4

        SERVICES PROVIDED BY ACTION DID NOT MEET MEDICARE
        REQUIREMENTS............................................................................................... 4

        POLICIES AND PROCEDURES NEED IMPROVEMENT ............................. 5

        OVERPAID COMPREHENSIVE OUTPATIENT REHABILITATION
        FACILITY CLAIMS ........................................................................................... 6

        RECOMMENDATIONS .................................................................................... 5

        ACTION COMMENTS....................................................................................... 6
             Disagreement with Audit Findings .......................................................... 6
             First Coast Service Options Probe Medical Review................................ 6

        OFFICE OF INSPECTOR GENERAL RESPONSE .......................................... 6
             Disagreement with Audit Findings .......................................................... 6
             First Coast Service Options Probe Medical Review................................ 7

APPENDIXES

        A – SAMPLING METHODOLOGY



                                                               iv
B – SAMPLE RESULTS AND ESTIMATES

C – ACTION REHABILITATION COMMENTS




                         v
                                   INTRODUCTION
BACKGROUND

Comprehensive Outpatient Rehabilitation Facility
Comprehensive outpatient rehabilitation facilities (CORF) provide diagnostic,
therapeutic, and restorative services to outpatients for the rehabilitation of injured,
disabled, or sick persons. To qualify as a Medicare-certified CORF, the facility must
provide at least the following services: physicians' services, physical therapy, and social
or psychological services (Section 1861 (cc) (2) (B) of the Social Security Act (the Act)).
Additional covered CORF services include occupational and speech pathology services
(“Medicare Benefit Policy Manual,” Chapter 12, Section 20.2).

Comprehensive Outpatient Rehabilitation Facility Legislation

Section 1861 (cc) (2) of the Act provides legislation governing CORFs. Prior to
implementation of a prospective payment system (PPS), CORFs received payment under
a cost-based reimbursement methodology. The Balanced Budget Act (BBA) of 1997
(sections 4523 (d) and 4541) required the Centers for Medicare & Medicaid Services
(CMS) to implement a PPS for hospital outpatient services, including services furnished
by CORFs. Accordingly, CMS implemented a prospective payment system for CORF
services furnished on or after January 1, 1999.

Comprehensive Outpatient Rehabilitation Facility Prospective Payment System

The BBA added section 1834 (k)(3) to the Act, which required all services furnished by
CORFs to be paid an applicable fee schedule amount. As such, the Medicare physician
fee schedule became the applicable fee schedule as defined by the Act. Payment of
CORF services is to be made at 80 percent of the lesser of (1) the actual charge for the
service or (2) the applicable fee schedule amount.

Fiscal Intermediary Responsibilities

Providers, such as CORFs, generally receive payments for covered services furnished to
Medicare beneficiaries through fiscal intermediaries (FI) under contract with CMS (42
CFR § 421.103). Agreements between CMS and an FI specify the functions to be
performed by the FI, which include, but are not limited to, processing claims, assisting in
the application of safeguards against unnecessary utilization of services, conducting
provider audits, resolving provider disputes, and reconsidering payment denial
determinations to providers that furnished services (42 CFR § 421.100).

Action Rehabilitation Center, Inc.

Action Rehabilitation Center, Inc. (Action) became a Medicare-certified CORF in
November 1998 and is located in Coral Gables, Florida. The FI for Action is First
Coast Service Options, Inc. (First Coast), located in Jacksonville, Florida.




                                             1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether services Action provided for physical
therapy, speech language pathology, and occupational therapy during calendar year
(CY) 2003 met Medicare reimbursement requirements.

Scope

Our review covered service dates for CY 2003. For this period, Action received
Medicare payments of $2,038,498 for 2,083 claims.

Although we did not perform detailed tests of internal controls, we did review Action’s
written policies and procedures relating to the documentation and submission of claims
for CORF therapy services.

We conducted fieldwork at Action in Coral Gables, Florida. The program safeguard
contractor (PSC) performed medical review functions.

Methodology

To accomplish our objective, we:

   • reviewed applicable laws, regulations, Medicare guidelines, and FI guidance for
     CORF therapy services;

   • used CMS's Data Extract System user interface to retrieve all Action claim
     information for the period of our audit;

   • selected a simple random sample of 100 paid claims containing 4,786
     services totaling $100,283 (Appendix A);

   • worked with PSC staff to develop a payment error matrix;

   • obtained supporting medical and billing records from Action for each
     sampled claim;

   • contracted with the PSC to review all medical and billing records to
     determine whether the CORF therapy services rendered by Action met
     Medicare reimbursement requirements;

   • reviewed Action's written policies and procedures manual to determine
     whether policies existed to prevent the errors that the medical reviewers
     identified;




                                            2
   •   utilized an appraisal program to estimate overpayments to Action (Appendix
       B ); and

   • met with members of Action management to provide them with the
     preliminary results of our review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                      FINDINGS AND RECOMMENDATIONS

Of the approximately $2 million in Medicare funds Action received in CY 2003, we
estimate that $727,569 was for therapy services that did not meet Medicare
reimbursement requirements.

From our random sample of 100 claims containing 4,786 CORF therapy services totaling
$100,283 the PSCs identified 94 claims for 1,789 services totaling $40,164 that did not
meet Medicare reimbursement requirements because:

   •   315 services totaling $6,754 were rendered under unapproved or incomplete plans
       of care;

   • 538 services totaling $13,068 did not meet documentation standards;

   • 905 services totaling $19,699 did not meet Medicare duration of therapy
     requirements; and

   •   31 services totaling $643 were not medically necessary.

Although Action had written policies and procedures that, if followed, would have
precluded some of the errors the medical reviewers identified, it did not always follow its
own policies and procedures for ensuring that therapy services were provided in
accordance with Medicare reimbursement requirements.

In addition, Action's written policies and procedures did not address Medicare
requirements for duration of therapy services and termination of Medicare coverage
when patients reached their rehabilitation goals.




                                             3
MEDICARE REQUIREMENTS AND FISCAL INTERMEDIARY GUIDANCE

Federal regulations contain the Medicare requirements for CORF services. In addition,
FI guidance specifies that CORF services must be furnished under an approved and
complete plan of care, be adequately documented, meet Medicare duration requirements,
and be medically necessary.

Approved and Complete Plan of Care – Medicare guidance states: “The plan of
treatment must contain the diagnosis, type, amount, frequency, and duration of services
to be performed and the anticipated rehabilitation goals” (“Medicare Outpatient Physical
Therapy/CORF Manual,” Pub. No. 9, Chapter II, Section 252(E)). Additionally, the FI
Local Coverage Determination Database (LCD) for Therapy and Rehabilitation Services
(L6196) states: “The signature and professional identity (e.g., MD, OTR/L) of the
person who established the plan, and the date it was established must be recorded with
the plan.”

Documentation – Medicare guidance states: (1) “The beginning and ending time of the
treatment should be recorded in the patient's medical record along with the note
describing the treatment. The time spent delivering each service, described by a timed
code, should be recorded” (“Medicare Intermediary Manual,” Pub. No. 13, part 3,
section 3653(I). (2) “Progress notes are to be maintained in the patient's record” (LCD
for Therapy and Rehabilitation Services (L1125). (3) “Therapy services must relate
directly and specifically to a written treatment plan. The plan must be established
before treatment is begun” (LCD for Therapy and Rehabilitation Services (L6196)).

Duration of Therapy Services Performed – Medicare guidance provides that:
“Providers should not bill for services performed for [less than] 8 minutes.” Additionally,
they state: “For any single CPT code, providers bill a single 15 minute unit for treatment
greater than or equal to 8 minutes and less than 23 minutes. If the duration of a single
modality or procedure is greater than or equal to 23 minutes to less than 38 minutes, then
2 units should be billed” (“Medicare Intermediary Manual,” Pub. No. 13, part 3, section
3653(I)).

Medical Necessity – Medicare guidance states: “When the patient has reached a point
where no further progress is being made toward one or more of the goals, Medicare
coverage ends for that aspect of the plan of treatment” (“Medicare Outpatient Physical
Therapy/CORF Manual,” Pub. 9,Chapter II, Section 252(E)).

SERVICES PROVIDED BY ACTION DID NOT MEET MEDICARE
REQUIREMENTS

The medical reviewers determined that 94 out of the 100 sampled claims contained
1,789 services totaling $40,164 that did not meet Medicare reimbursement
requirements:

   • For 315 therapy services, the scope of services provided did not comply with the
     written plan of care. For example, Action billed 5 service units of therapeutic



                                             4
      activities that were not required by the plan of care. Also, Action billed therapy
      services for which neither the plan of care nor the certification was signed or
      dated. As a result of these and other similar issues, Action received $6,754 in
      unallowable payments.

   • For 538 therapy services, the services provided did not meet documentation
     standards. For example, for some therapy services, Action did not document the
     beginning and ending time of the treatment on the note describing the treatment,
     as required by Medicare Intermediary Manual,” Pub. No. 13, part 3, section
     3653(I). Consequently, the duration of therapy is unknown. In addition, Action
     billed for therapy services that did not have supporting documentation such as
     progress notes or an initial plan of care. As a result of these and other similar
     issues, Action received $13,068 in unallowable payments.

   • For 905 therapy services, the duration of therapy services claimed as one unit
     of service did not fall within the required range of “greater than or equal to 8
     minutes and less than 23 minutes.” In one case, Action billed therapy services
     that did not meet Medicare duration of therapy requirements because the
     duration of therapy was only 7 minutes. In another case, Action billed two
     units of therapeutic exercise but documented 8 minutes (or one unit) of total
     treatment time for this service. As a result of these and other similar issues,
     Action received $19,699 in unallowable payments.

   • For 31 therapy services, documentation did not support medical necessity. For
     example, although an Occupational Therapist documented that the patient’s
     required level of assistance was “Independent,” which indicates that the patient’s
     treatment goals had been met, this patient’s services were billed to Medicare. As a
     result of this and other similar issues, Action received $643 in unallowable
     payments.

POLICIES AND PROCEDURES NEED IMPROVEMENT

Medical reviewers determined that Action did not always follow Medicare requirements
or FI guidance. Action had policies and procedures for ensuring that therapy services
both were provided under an approved and complete plan of care and were adequately
documented. If Action had followed these policies and procedures, it would have
precluded some of the errors identified by the medical reviewers.

In addition, Action’s policies and procedures did not address Medicare requirements for
duration of therapy services or for termination of Medicare coverage when patients
reached their rehabilitation goals.




                                            5
OVERPAID COMPREHENSIVE OUTPATIENT REHABILITATION FACILITY
CLAIMS

Action received $40,164 in unallowable payments for therapy services that did not meet
Medicare reimbursement requirements. Based on our sample results, we estimated that
Action received $727,569 for services provided during CY 2003 that did not meet
Medicare reimbursement requirements. (See Appendix B.)

RECOMMENDATIONS

We recommend that Action:

   •   refund to the Medicare program the estimated $727,569 in payments for
       services billed for CY 2003 that did not meet Medicare reimbursement
       requirements;

   •   follow its policies and procedures to ensure therapy services are provided
       under an approved and complete plan of care and are adequately documented;

   •   update its policies and procedures to address Medicare requirements for
       duration of therapy services and medical necessity; and

   • identify and submit adjusted claims for services provided subsequent to our audit
     period that did not meet Medicare reimbursement requirements.

ACTION COMMENTS

Disagreement With Audit Findings

In a written response to our draft report, Action generally disagreed with our findings.
Action provided us with additional medical records, notes, and other documentation that
Action had compiled for each of the 94 claims we found to contain errors and requested
that we review them.

First Coast Service Options Probe Medical Review

Action requested that we take into consideration the probe medical review First Coast
Service Options (First Coast) completed in September 2004. The First Coast review
found only “12 [percent] in alleged billing errors or deficiencies” while our review
found “approximately 40 [percent].”

OFFICE OF INSPECTOR GENERAL RESPONSE

Disagreement With Audit Findings

In view of the disagreement expressed by Action, we requested that the PSC medical
reviewers consider the additional documents Action included with its comments and
provide us with a response. Based on the PSC’s review of Action’s comments and


                                            6
additional documentation, the medical reviewers concluded that they would partially
reverse their original determinations on some of the services originally found to be in
error. Accordingly, we adjusted our findings and recommendations.

First Coast Service Options Probe Medical Review

We reviewed the documentation provided by Action relative to the First Coast probe
medical review and found that the First Coast review was dissimilar from the PSC
medical review, discussed in this report, for the following three reasons: The First Coast
medical review (1) covered only a 6-month period, (2) covered only 40 claims containing
382 services, and (3) was limited to CPT code 97124 (massage therapy). Conversely, the
PSC medical review (1) covered a 1-year period, (2) covered 100 claims containing 4,786
services, and (3) included 12 different CPT codes. Therefore, the First Coast review does
not constitute an appropriate basis for comparison with the PSC review.

The complete text of Action’s comments is included as Appendix C.




                                             7
APPENDIXES
                                                                    APPENDIX A

SAMPLING METHODOLOGY

POPULATION

The population consisted of 2,083 paid claims for comprehensive outpatient
rehabilitation facility (CORF) services provided in calendar year 2003, representing
$2,038,498 in therapy benefits the FI paid to Action.

SAMPLING FRAME

The sampling frame is an Access database table containing the 2,083 paid claims.

SAMPLE UNIT

The sample unit is a paid CORF claim for a Medicare beneficiary. A paid claim
consists of multiple units of therapy services claimed by the provider for the period
covered by the claim.

SAMPLE DESIGN

A simple random sample of paid CORF claims.

SAMPLE SIZE

The sample consisted of 100 claims, which contained 4,786 CORF therapy services.

ESTIMATION METHODOLOGY

Using the Office of Inspector General, Office of Audit Services statistical software, we
estimated the unallowable payments for services that Action provided during calendar
year 2003.
                                                              APPENDIX B

                  SAMPLE RESULTS AND ESTIMATES

SAMPLE RESULTS
                                                  No. of         Value of
Sample                Value of                  Unallowable     Unallowable
 Size                 Sample                      Claims         Payments

 100                $100,283.44                     94           $40,164


ESTIMATES OF UNALLOWABLE PAYMENTS
(Limits Calculated for a 90-Percent Confidence Level)

                    Point Estimate:      $836,635

                    Lower Limit          $727,569

                    Upper Limit          $945,700
APPENDIX C
  Page 1 of 9
APPENDIX C
  Page 2 of 9
APPENDIX C
  Page 3 of 9
APPENDIX C
  Page 4 of 9
APPENDIX C
  Page 5 of 9
APPENDIX C
  Page 6 of 9
APPENDIX C
  Page 7 of 9
APPENDIX C
  Page 8 of 9
             APPENDIX C
               Page 9 of 9




NOTE: The remaining pages
have been redacted because
 they contained Personally
  Identifiable Information.
